           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
 FOREIGN ENFORCEMENT QUESTIONNAIRES


     September 2012   A-13-10-11098




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:   September 14, 2012                                                             Refer To:

To:     The Commissioner

From:   Inspector General

Subject: The Social Security Administration’s Foreign Enforcement Questionnaires
        (A-13-10-11098)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration (SSA)
        complied with its policies and procedures for foreign enforcement questionnaires (FEQ).

        BACKGROUND

        U.S. citizens and noncitizens who meet certain eligibility requirements can receive
        Old-Age, Survivors and Disability Insurance (OASDI) 1 while living abroad. 2 As of
        December 2010, there were approximately 548,000 OASDI beneficiaries residing in
        foreign countries and receiving about $321 million in monthly benefit payments (about
        $3.85 billion, annually). 3 As of April 2011, representative payees 4 were serving about
        35,000 beneficiaries residing in foreign countries.

        The Foreign Enforcement Program uses various methods to monitor continuing OASDI
        eligibility for beneficiaries living abroad. For example, it conducts annual nonagenarian




        1
         SSA administers the OASDI program under Title II of the Social Security Act. Social Security Act § 201
        et seq., 42 U.S.C. § 401 et seq.
        2
         SSA Publication No. 05-10137, Your Payments While You Are Outside the United States, ICN 480085,
        June 2011.
        3
            Annual Statistical Supplement to the Social Security Bulletin, 2011, released February 2012.
        4
         Congress granted SSA the authority to appoint representative payees to receive and manage Social
        Security payments for individuals when representative payment would serve the individual’s interests.
        See Social Security Act §§ 205(j)(1) and 1631(a)(2)(A)(ii); 42 U.S.C. §§ 405(j)(1) and 1383(a)(2)(A)(ii).
Page 2 - The Commissioner


and centenarian integrity studies 5 that involve contacting foreign beneficiaries in person
who attain ages 97 and 100, respectively. See Appendix B for more details.

Additionally, SSA uses FEQs to contact beneficiaries and representative payees
annually or biennially to ensure beneficiaries are alive and to determine whether there
have been any unreported events. 6 The Agency sends beneficiaries receiving their own
benefit payments a Form SSA-7162, Report to United States Social Security
Administration, annually or biennially, depending on their age, country of residence, and
benefit type as well as the last two digits of their Social Security number (see
Appendix C). Each year, SSA sends representative payees a Form SSA-7161, Report
to United States Social Security Administration by Person Receiving Benefits for a Child
or for an Adult Unable to Handle Funds, to complete on behalf of the beneficiaries they
serve (see Appendix D).

According to policy, 7 SSA mails FEQs in May or June of each year. 8 SSA policy directs
that beneficiaries return their completed FEQ forms to the Wilkes-Barre Data
Operations Center (WBDOC) for scanning, updating the system, and identifying
responses that require action. 9 WBDOC staff reviews FEQ responses for completeness
and, using written guidance, determines whether the responses are adequate or should
be given further review. FEQs that WBDOC staff determines contain adequate answers
are considered approvals, and no further action is taken. Staff classifies FEQs requiring
further review as actionable and forwards them to the Office of Central Operations’
Office of International Operations (OIO) for additional analysis and case development. 10
Staff place documentation related to development and disposition of the cases in the
applicable electronic folder in OIO’s Paperless System. 11


5
  See Appendix B for more information about integrity studies and other procedures for monitoring
beneficiaries.
6
  Unreported events include changes in citizenship or residence, marriage, divorce, death, or
employment.
7
    RS 02655.005 B. (August 9, 2012).
8
    SSA contracts a vendor each year to mail FEQs to beneficiaries and representative payees.
9
     RS 02655.005 B.4. (August 9, 2012)
10
   Foreign Technical Benefit Examiners and Claims Authorizers develop the FEQ-related cases. Foreign
Technical Benefit Examiners make final determinations on the full range of post-adjudicative actions,
entitlement and non-entitlement to benefits, continuing entitlement to benefits, and the payment amounts
to qualified beneficiaries. Further, Foreign Technical Benefit Examiners initiate, receive, and respond to
telephone contacts and written inquiries to resolve issues or discrepancies regarding various Title II, XVI,
and XVIII issues. Claims Authorizers adjudicate cases in which at least one beneficiary uses a mailing
address, or resides, outside the United States and “District Office Final Authorization” cannot be used.
See POMS GN 00905.004 A. (January 29, 1996). A District Office Final Authorization is an adjudicative
determination on a claimant’s Title II application for benefits. POMS GN 01010.027 A. (May 11, 2012).
11
  OIO’s Paperless System uses electronic folders to store documents related to beneficiaries and
representative payees.
Page 3 - The Commissioner


SSA policy 12 requires that the Agency create a “nonresponder” file containing
beneficiaries who do not return an FEQ within 60 days of the initial mailing. SSA
usually sends a second notice to non-responders in September with a request for reply
within 45 days. 13 Finally, in January, if beneficiaries or payees take no action, SSA may
suspend payments. 14 Beneficiaries who receive Forms SSA-7162 and do not respond
are immediately suspended. However, SSA refers to OIO for case development those
beneficiaries with payees who receive Forms SSA-7161 but do not respond. If
appropriate, at the conclusion of case development, SSA suspends the beneficiaries’
payments.

We asked Office of International Programs staff why suspensions for failure to return
the SSA-7161 require development whereas SSA suspends benefits immediately for
failure to return the SSA-7162. SSA officials stated that foreign policy mirrors domestic
policy when possible. 15 Therefore, when a representative payee does not return the
SSA-7161, the Agency must develop the case to determine the cause of the non-
response.

To conduct this review, we obtained electronic data files containing information for
313,506 beneficiaries residing in foreign countries that SSA used for the initial FEQ
mailings in 2010. We reviewed 100 of these questionnaires to determine whether SSA
complied with its policies and procedures for FEQs. Of the 100 questionnaires
selected, 50 were Forms SSA-7161, and 50 were Forms SSA-7162. To conduct our
analysis, we used information recorded in SSA’s automated systems, including OIO’s
Paperless System, Master Beneficiary Records (MBR), the Claims Folder Records
Management System, and the Payment History Update System. See Appendix E for
our scope and methodology.

RESULTS OF REVIEW

Generally, SSA complied with its FEQ policies and procedures. However, SSA did not
mail FEQs to foreign Army Post (APO) and Fleet Post Office (FPO) addresses, as
required. 16 Of the 100 FEQs selected, 13 did not have adequate documentation of case
development and disposition, and 4 lacked adequate documentation. In addition, some
of SSA’s actions were not appropriate. We also found some policies and procedures
related to FEQs were inaccurate or outdated.



12
     SSA, POMS, RS 02655.010 A. (March 17, 2008)
13
     SSA, POMS, RS 02655.010 B. and C. (March 17, 2008).
14
     SSA, POMS, RS 02655.010 E. (March 17, 2008).
15
  SSA, POMS, RS 02655.010 provides similar guidelines set forth in domestic policy. Cases are
developed for failure to return domestic representative payee accounting reports before actions are taken.
16
 APO and FPO addresses are addresses of military posts, and are indicated on the MBR by a State and
County Code of “94001,” “95001,” or “96001.”
Page 4 - The Commissioner


APO/FPO ADDRESSES
SSA did not comply with its policy 17 to mail annual or biennial FEQs to beneficiaries and
representative payees 18 for those individuals who have a foreign APO/FPO address.
To determine the reliability of the Agency’s FEQ selection, we reviewed information in
the Agency’s electronic data file for the initial 2011 FEQ mailings. We used this
information to determine whether SSA had identified all beneficiaries and payees who
should have received FEQs in 2011. We found SSA failed to include in its electronic
FEQ mailing file about 2,800 beneficiaries and representative payees with foreign
APO/FPO addresses. SSA excluded them from the mailing although they met the
criteria for receiving an FEQ in 2011. Further, discussions with Agency staff confirmed
they erroneously excluded APO/FPO addresses from the 2010 mailings.

In September 2011, we informed Office of Central Operations’ Center for Security and
Integrity (CSI) staff that the Agency had excluded beneficiaries and payees with foreign
APO/FPO addresses from the 2011 FEQ mailing. SSA staff was unaware of this issue.
CSI staff explained SSA erroneously excluded beneficiaries associated with a foreign
APO/FPO address from the Foreign Enforcement Program for at least the last 5 years.

According to SSA staff, beneficiaries and payees with foreign APO/FPO addresses
were not included in the FEQ mailings because of a systems programming error. Staff
explained the Agency was working to resolve the programming error. Policy 19 directs
annual or biennial mailings of questionnaires to beneficiaries, including those with
foreign APO/FPO addresses. On March 28, 2012, staff stated the Agency was planning
to include all foreign APO/FPO addresses in future annual FEQ mailings. Beginning
with the 2012 FEQ mailing, the Agency plans to do such a mailing for the next several
years. After evaluating the response rate of beneficiaries and payees receiving annual
FEQs, the Agency plans to determine whether it should return to the mailing frequency
in its policy. 20

As of April 2011, we identified about 5,000 beneficiaries in current pay status associated
with a foreign APO/FPO address. These beneficiaries were receiving approximately
$57.8 million in OASDI benefits annually. See Table 1 for the age range of beneficiaries
with a foreign APO/FPO address.




17
     SSA, POMS, RS 02655.005 B. (August 9, 2012).
18
     SSA, POMS RS 02655.005 was updated in August 2012 to include representative payees.
19
     Id.
20
     Id.
Page 5 - The Commissioner


               Table 1: Beneficiaries with Foreign APO/FPO Address

                                               Number of
                              Age Range       Beneficiaries
                            1-25                         812
                            26-50                        165
                            51-75                      2,950
                            76-85                        947
                            86 or older                  164
                               Total                   5,038

Of the approximately 5,000 beneficiaries, about 2,800 should have been included in the
initial 2011 FEQ mailings. These beneficiaries received an estimated $30.1 million in
Social Security payments each year. There is a risk of these individuals being overpaid
because of a lack of monitoring OASDI eligibility with FEQs. Of the 2,800 beneficiaries,
832 receive about $6 million, annually, in Social Security payments managed by
representative payees. Beneficiaries served by these payees are at risk of their needs
not being met and/or their payments being misused due to the lack of adequate Agency
oversight.

We shared the results of our review with SSA. Subsequently, SSA staff reported the
Agency took corrective action to include foreign APO/FPO addresses in FEQ mailings.
On July 24, 2012, SSA staff reported the programming error was resolved. Additionally,
staff stated SSA mailed FEQs to all beneficiaries with a foreign APO/FPO address in
the initial 2012 FEQ mailing and intends to include all such beneficiaries in the
2013 mailings. We did not independently verify APO/FPO addresses were included in
the initial 2012 mailing. However, based on information reported by SSA staff, we do
not recommend any further action at this time.

PROCESSING FEQ RESPONSES

We found WBDOC appropriately approved 74 of the 100 FEQs in our sample. The
beneficiaries or representative payees adequately completed the FEQs, and no further
action was needed. WBDOC forwarded 21 of the remaining 26 FEQs in our sample to
OIO for further development in accordance with written policy. Finally, SSA did not
receive five FEQ responses, which required that it take further action. See Table 2.

                       Table 2: Processing FEQ Responses
                                                Form- Form-
            Results of WBDOC Review             7161 7162             Total
            Approved                                     30      44      74
            Actionable Items                             18       3      21
            Missing FEQs Requiring Further Action         2       3       5
             Total                                       50      50     100
Page 6 - The Commissioner


Actionable Items

We reviewed responses to the FEQs that WBDOC forwarded for additional review. Of
the 21 actionable FEQs, 13 did not have adequate documentation in the OIO Paperless
System about actions taken by OIO staff, while 4 did not have adequate documentation
about actions taken and were processed incorrectly. Finally, four had adequate
documentation in the OIO Paperless System, and staff processed them correctly.

We discussed processing practices for actionable FEQs with SSA staff. Staff explained
there was no specific policy that identified the information necessary to document
resolving actionable FEQs in the Paperless System. Staff provided explanations
regarding what should have occurred for the 21 actionable items.

SSA staff agreed 17 responses had inadequate documentation to support OIO’s case
development and disposition. Based on our discussions with OIO staff and information
recorded in SSA’s automated systems, we concluded there was appropriate case
development and disposition for 13 responses. For example, one FEQ was returned
with a change of address annotated on the questionnaire. There was no documentation
in OIO’s Paperless System to determine that case development was performed;
however, the address was correctly changed on the MBR. Four responses had
inadequate documentation and actions to resolve these items were inappropriate. For
example, in one case, documentation in the Paperless System stated, "…please review
block 5 for employment." The disposition recorded in the Paperless System was "NAN."
We confirmed no further action was taken regarding this response. Additionally, OIO
staff stated the case required additional review to determine whether the beneficiary’s
employment affected OASDI eligibility. Lastly, four responses had adequate
documentation of case development and disposition. See Table 3 for more details.

                          Table 3: FEQ Actionable Items
                                            Form- Form-
                    Assessment              7161 7162 Total            Portion
        Inadequate Documentation                  12       1     13       62%
        Inadequate Documentation and
        Disposition                                3       1       4      19%
        Adequate Documentation and
        Disposition                                3       1      4       19%
           Total                                  18       3     21      100%

Missing FEQs

Agency staff could not locate FEQs for five beneficiaries. SSA considered these
individuals as non-responders requiring case development. OIO suspended one
beneficiary’s payments for failure to return a Form SSA-7162. Three of the remaining
Page 7 - The Commissioner


four beneficiaries were not required to return an FEQ because they had terminated
benefits, moved back to the United States, or had payments suspended at the time of
the second FEQ mailing. 21

SSA did not timely process the reported death of the fifth non-responder. The
beneficiary died in August 2008. The beneficiary’s son reported the beneficiary’s death
to SSA in April 2009. However, SSA did not suspend benefit payments until
December 2010. A benefit payment delivered in November 2010 was returned to SSA.
Had the payment not been returned, overpayments may have continued.

Furthermore, SSA staff did not process the fifth non-responder’s FEQ correctly. After
receiving notice of the beneficiary’s death in April 2009, OIO requested the Foreign
Service Post (FSP) confirm the information. 22 The first processing error was an
inadequate initial review by the FSP. The FSP reported that it checked the MBR to
confirm the beneficiary was in current pay status as well as confirmed that payments
were regularly sent to the bank. There was no attempt to contact the beneficiary or
obtain a death certificate. The FSP’s response to OIO was that the beneficiary was
alive. A second processing error occurred when OIO reviewed the FSP’s response and
documented “NAN” in the Paperless System. SSA’s review did not detect the
inadequacy of the FSP’s actions to confirm the beneficiary’s death.

The Agency overpaid $30,740 because SSA staff did not process the FEQ timely and
correctly. SSA collected about $23,551 of the overpayment. As of May 25, 2012, the
Agency had not collected the $7,189 balance.

WRITTEN POLICIES AND PROCEDURES

SSA’s policies and procedures for FEQs were not always accurate. Some of SSA’s
policies related to FEQs were incorrect and outdated. Specifically, POMS, RS
02655.005 B., states, “…FEQs are mailed directly to the beneficiaries.” Interviews with
SSA staff indicated this was incorrect. SSA mails Forms SSA-7162 directly to
beneficiaries; however Agency staff stated they mail Forms SSA-7161 directly to
representative payees.

In addition, we noted that some of the FEQ-related policies refer to paper processes
instead of the electronic processes used by the Agency. We found SSA had policy
explaining FEQ storage and retention. However, Agency staff stated that computer
scanning procedures make the information cited in this policy no longer
relevant. WBDOC scans FEQs upon receipt, and FEQs are stored electronically for at
least 7 years. Additionally, POMS, RS 02655.007, contains similar language regarding
21
  Before each mailing, SSA compares the FEQ mailing file to the MBR to determine whether individuals
no longer meet the criteria to receive an FEQ. For example, SSA removes from the mailing file
beneficiaries who moved to the United States or have an updated and ineligible Beneficiary Identification
Code.
22
  FSPs are offices located in foreign countries that take claims and develop them on-site in foreign
countries to save time and provide more complete and accurate claims information.
Page 8 - The Commissioner


retention and storage. Further, other SSA policy instructs individuals to place a red "X"
and annotate their clerk/unit numbers next to actionable answers on FEQs. Thus, the
instructions are for a paper process, rather than the automated process now used.
During our discussions with SSA staff, the Agency acknowledged that some policies are
outdated.

CONCLUSION AND RECOMMENDATIONS
SSA generally complied with its policies and procedures regarding FEQs. However, we
identified weaknesses in SSA’s use of FEQs for the oversight of OASDI beneficiaries
living abroad. Our review found SSA (a) did not mail questionnaires to all beneficiaries,
as required by its policy; (b) did not always have adequate documentation of case
development and actions taken to resolve inadequate questionnaire responses;
(c) actions taken for some questionnaire responses were inappropriate; and (d) had
inaccurate and outdated policies and procedures for the handling of FEQs. Based on
the results of our review, we recommend SSA:

1. Take corrective actions to resolve the four cases we identified involving
   inappropriate Agency actions and complete the collection process for the remaining
   $7,189 from an overpayment involving a deceased FEQ non-responder.

2. Revise its FEQ policies to provide guidance for documentation of case development
   and resolution of actionable FEQ responses and update policies to correct
   inaccuracies and reflect current processes.

AGENCY COMMENTS
SSA agreed with our recommendations. See Appendix F for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                       Appendices
APPENDIX A – Acronyms

APPENDIX B – Integrity Studies and Other Procedures for Monitoring Beneficiaries
             Abroad
APPENDIX C – Report to The United States Social Security Administration
             (Form SSA-7162)
APPENDIX D – Report to United States Social Security Administration by Person
             Receiving Benefits for a Child or for an Adult Unable to Handle Funds
             (Form SSA-7161)
APPENDIX E – Scope and Methodology
APPENDIX F – Agency Comments
APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                      Appendix A

Acronyms
APO     Army Post Office
CSI     Center for Security and Integrity
FEQ     Foreign Enforcement Questionnaire
FPO     Fleet Post Office
FSP     Foreign Service Post
MBR     Master Beneficiary Record
OASDI   Old-Age, Survivors and Disability Insurance
OIG     Office of the Inspector General
OIO     Office of International Operations
POMS    Program Operations Manual System
SSA     Social Security Administration
WBDOC   Wilkes-Barre Data Operations Center
                                                                                 Appendix B

Integrity Studies and Other Procedures for
Monitoring Beneficiaries Living Abroad
The Foreign Enforcement Program uses various methods to monitor Old-Age, Survivors
and Disability Insurance (OASDI) 1 beneficiaries living abroad. The Social Security
Administration (SSA) performs nonagenarian and centenarian integrity studies in which
it annually contacts older beneficiaries. Additionally, the Agency has death reporting
agreements with some countries.

Integrity Studies

The Office of Central Operations’ Center for Security and Integrity (CSI) and Foreign
Service Posts (FSP) conduct nonagenarian and centenarian integrity studies annually.
According to CSI, the integrity studies confirm the identity and existence of
nonagenarian and centenarian beneficiaries. FSP staff contact foreign beneficiaries
who attain ages 97 and 100 to confirm their identities.

According to SSA staff, during these studies, FSP representatives attempt to contact
100 percent of foreign beneficiaries who attain ages 97 and 100 except Canadian
residents. Since Canada does not have an FSP, CSI conducted a telephone integrity
study in 2010 and provided us their report. CSI staff provided us the following
information about studies conducted in 2010.

2010 Nonagenarian Study

As of October 2011, SSA had completed 762 of the 779 cases for beneficiaries
identified as attaining age 97 in 2010. According to SSA, personal contact efforts found
121 deaths, of which 65 were unreported. SSA stated that the 65 unreported deaths
resulted in about $313,056 in overpayments. However, reclamation efforts of the FSPs
and Office of Central Operations’ Office of International Operations (OIO) resulted in
recovery of about $90,935, reducing the outstanding overpayment balance to about
$222,121.

2010 Centenarian Study

As of October 2011, SSA had completed 277 of the 279 cases for beneficiaries
identified as attaining age 100 during 2010. SSA stated that personal contact efforts
found 51 deaths, of which 27 deaths were unreported, and resulted in about



1
 SSA administers the OASDI program under Title II of the Social Security Act. Social Security Act § 201
et seq., 42 U.S.C. § 401 et seq.

                                                  B-1
    $89,986 in overpayments. According to SSA, reclamation efforts of the FSPs and
    OIO staff resulted in recovery of about $45,431 in overpayments, reducing the
    outstanding balance to about $44,555.

2010 Canadian Telephone Integrity Study

According to SSA, the objective of this integrity study was to assess the accuracy of
SSA payments to the nonagenarian and centenarian beneficiary populations in Canada.
SSA contacted beneficiaries by telephone and asked questions to verify their identity.
According to the report, the populations identified included 245 individuals who attained
age 97 and 82 individuals who attained age 100 in Calendar Year 2010. SSA stated
that during the survey period, 80 deaths were reported timely to SSA or Border District
offices and benefits were terminated as necessary.

During the review, SSA was unable to contact nine beneficiaries and their benefits were
subsequently suspended. According to SSA, these nine individuals’ monthly benefits
totaled $7,564. Additionally, nine unreported deaths were discovered, which resulted in
$36,579 in overpayments, of which $16,828 was recovered. Further, CSI sent 22
requests to OIO for representative payee development.

Death Reporting Agreements

The Agency maintains death-reporting agreements with Australia, the Netherlands, and
Sweden. The agreements create an automated reciprocal death data exchange with
these countries, which allows SSA to receive timely death reports for deceased
beneficiaries residing abroad. 2 Australia, the Netherlands, and Sweden accounted for
approximately 20,420 (3.6 percent) of our data extract of 554,680 foreign beneficiaries
as of April 2011. Additionally, South Korea has agreed to participate in the data
exchange. South Korea accounted for 2,585 (0.5 percent) of the 554,680 foreign
beneficiaries. Further, SSA is negotiating with Germany, Italy, and the United Kingdom
to obtain a death-reporting agreement. These countries accounted for 105,567
(19 percent) of the 2011 foreign beneficiaries.

Death reporting agreements may reduce SSA’s Integrity Study workload. Also, a
significant amount of money could be saved by reducing overpayments due to
unreported deaths. SSA would benefit if other countries with large beneficiary
populations would agree to report deaths as shown in Table B-1. The Table lists
countries of interest regarding death reporting agreements with SSA. Additionally, the
table lists the respective countries’ percentage of the 554,680 foreign beneficiary
population, as of April 2011.


2
  In August 2005, SSA created and certified an exchange known as Totalization Data Exchange. The
main purpose of Totalization Data Exchange is to allow the exchange of information required to support
international social security agreements via a Government-to-Government Online Suite of Services
electronic data exchange. One aspect of the Totalization Data Exchange is that countries participating
agree to exchange death data with SSA.

                                                  B-2
                Table B-1: Foreign Countries Where OASDI Beneficiaries Live

                                                                                               Percent of
           Country                                     Consular Code                           Population 3
Death Reporting Agreement                   708, 718, 738 (Australia), 825, 874                     4
Countries                                   (the Netherlands), 782 (Sweden)
Countries with Death Reporting              732 (Germany), 700 (Italy), 800                            19
Agreement in Process                        (United Kingdom), 916 (South Korea)

Other Countries with Large
Populations 4
Canada                                      953                                                        20
Mexico 5                                    704, 773, 783                                               9
Japan                                       713, 723, 733, 753                                          8
Philippines                                 301                                                         5
Greece                                      701                                                         4




3
    Percentages are in relation to total foreign beneficiary population of 554,680 as of April 2011.
4
  We selected five countries with the largest foreign beneficiary population that neither have a death-
reporting agreement with SSA, nor are in the process of entering into a death-reporting agreement.
5
    Some countries, such as Mexico, have multiple Consular Codes.

                                                       B-3
                                         Appendix C

Report to the United States Social Security
Administration (Form SSA-7162)




                         C-1
C-2
                                              Appendix D
Report to United States Social Security Administration by
Person Receiving Benefits for a Child or for an Adult
Unable to Handle Funds (SSA-7161)




                            D-1
D-2
                                                                        Appendix E

Scope and Methodology
To achieve our audit objective, we:

•   Reviewed applicable Federal laws and regulations, sections of the Social Security
    Administration’s (SSA) Program Operations Manual System, and SSA publications
    related to the Foreign Enforcement Program.

•   Identified and reviewed prior Office of the Inspector General reports pertaining to the
    Foreign Enforcement Program and foreign enforcement questionnaire (FEQ).

•   Compared SSA’s information used for the 2011 FEQ mailings to our electronic data
    extract based on the criteria used for the mailings. During this analysis, we found
    SSA excluded individuals with Army Post and Fleet Post Office addresses from the
    FEQ mailings. Agency staff explained beneficiaries associated with such addresses
    were excluded from the Foreign Enforcement Program for at least the last five years.
    Consequently, the scope of our review was limited to the 2010 FEQ population we
    received from SSA, which we estimate did not include about 2,800 individuals with
    an Army Post or Fleet Post Office address.

•   Obtained Microsoft Excel files from SSA comprising the data for
    313,506 beneficiaries to whom SSA sent FEQs in 2010. We selected a sample of

     50 of 31,107 representative payees who received Forms SSA-7161, Report to
      United States Social Security Administration by Person Receiving Benefits for a
      Child or for an Adult Unable to Handle Funds and
     50 of 282,399 beneficiaries who received Forms SSA-7162, Report to United
      States Social Security Administration.

•   Reviewed responses for each FEQ and related documents in the Claims Folder
    Records Management System to determine whether it was an approval, requiring no
    additional actions from SSA, or an actionable questionnaire, requiring additional
    actions by Office of International Operations staff.

•   Analyzed 21 actionable questionnaires with the assistance of a Foreign Benefits
    Technical Examiner, by reviewing

     questionnaires completed in previous years and
     information and documents about beneficiaries in the Office of International
      Operations’ Paperless System, SSA’s Master Beneficiary Records, Claims
      Folder Records Management System, Payment History Update System,
      Modernized Development Worksheet and the Query Response Selection List.

                                            E-1
•   Researched five FEQ non-responders.

•   Obtained summary information from the Agency about its 2010 nonagenarian and
    centenarian integrity studies. We also obtained SSA’s 2010 Canadian integrity
    study report that contacted nonagenarians and centenarians in Canada.

•   Contacted or interviewed management and staff in SSA’s Office of International
    Programs; and Office of Central Operations’ Office of International Operations,
    Center for Security and Integrity, and the Center for Program Support.

We performed our fieldwork at SSA Headquarters from September 2011 to April 2012.
The principle entity audited was the Office of the Deputy Commissioner for Operations.
We determined that the data used in this report were sufficiently reliable given the audit
objective and intended use of the data. We conducted tests to determine the
completeness and accuracy of the data, which allowed us to assess the reliability of the
data and achieve our audit objective. Although we found and reported certain data
integrity issues, we were able to use the data for its intended purpose.

We conducted our review in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objective.




                                           E-2
                  Appendix F

Agency Comments
                                       SOCIAL SECURITY

MEMORANDUM


Date:   September 5, 2012                                                       Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “The Social Security Administration’s Foreign
        Enforcement Questionnaires” (A-13-10-11098)—INFORMATION

        Thank you for the opportunity to review the draft report. Please see our attached comments.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.

        Attachment




                                                       F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“THE SOCIAL SECURITY ADMINISTRATION’S FOREIGN ENFORCEMENT
QUESTIONNAIRES” (A-13-10-11098)


Recommendation 1

Take corrective actions to resolve the four cases we identified involving inappropriate Agency
actions and complete the collection process for the remaining $7,189 from an overpayment
involving a deceased FEQ non-responder.

Response

We agree.

Recommendation 2

Revise its FEQ policies to provide guidance for documentation of case development and
resolution of actionable FEQ responses and update policies to correct inaccuracies and reflect
current processes.

Response

We agree.




                                               F-2
                                                                         Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Shirley E. Todd, Audit Director

   Florence Wolford, Audit Manager

Acknowledgments

In addition to those named above:

   Bryan Kaminski, Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-13-10-11098.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
